CERTIFICATE OF WORD COUNT
NO. 19-191
Ashley Wilcox Page,
Petitioner(s),
v.
Todd L. Hicks, Et. Al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the ASHLEY WILCOX PAGE
REPLY BRIEF OF PETITIONERS contains 2613 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 18, 2019

SCP Tracking: Montiel, Sr.-6752 Taylor Circle-Cover Tan

